<html>
<title> - OVERVIEW OF THE ADMINISTRATION'S FEDERAL RESEARCH AND DEVELOPMENT BUDGET FOR FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                    OVERVIEW OF THE ADMINISTRATION'S
                    FEDERAL RESEARCH AND DEVELOPMENT
                      BUDGET FOR FISCAL YEAR 2013

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 17, 2012

                               __________

                           Serial No. 112-61

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-121 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY















                            C O N T E N T S

                       Friday, February 17, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    21
    Written Statement............................................    23

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    24
    Written Statement............................................    26

                               Witnesses:

The Honorable John P. Holdren, Director, Office of Science and 
  Technology Policy
    Oral Statement...............................................    28
    Written Statement............................................    30

Discussion.......................................................    44

             Appendix I: Answers to Post-Hearing Questions

The Honorable John P. Holdren, Director, Office of Science and 
  Technology Policy..............................................    68

            Appendix II: Additional Material for the Record

Website link EPA's cost-benefit analysis of recently released 
  mercury rule as submitted by the Honorable John P. Holdren, 
  Director, Office of Science and Technology Policy..............    92
                                                                       

 
                    OVERVIEW OF THE ADMINISTRATION'S
                    FEDERAL RESEARCH AND DEVELOPMENT
                      BUDGET FOR FISCAL YEAR 2013

                              ----------                              


                       FRIDAY, FEBRUARY 17, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:34 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Hall. Okay. The Committee on Science, Space, and 
Technology will come to order. I say good morning to everyone. 
I know that you know what we are here for. It is entitled ``An 
Overview of the Administration's Federal Research and 
Development Budget for the Fiscal Year 2013.'' And in front of 
you are packets containing the written testimony, biography, 
and Truth-in-Testimony disclosures for today's witness, Dr. 
John P. Holdren. I didn't forget the word energy; I just have 
to recognize myself for five minutes, opening statement.
    Dr. Holdren, I certainly want to thank you for appearing 
with us today. I know it has been a busy week with the late 
release of the budget just coming out on Monday. As the 
President's Science Advisor and as Director of the Office of 
Science and Technology Policy, you are in a unique position to 
have a real and tangible influence on the Administration's 
direction in science and technology, so we appreciate you being 
here to discuss the Administration's R&D priorities and to 
answer our questions.
    Today's hearing obviously will cover a great deal of 
ground, so I will try to be brief with a few points before we 
hear from you but we will hear from you shortly. All told, the 
budget is not much different than your previous budget, so you 
will understand that my remarks are not much different than the 
ones I made last year.
    Our national debt a year ago was just over $14 trillion 
dollars. Our debt today is nearly $15.4 trillion dollars, and 
our national budget deficit has increased by 190 percent 
between 2008 and 2012. In his three years of office, President 
Obama has accumulated more debt than every President from 
George Washington to Bill Clinton combined, and yet the budget 
we received earlier this week asks for an additional 3.8 
trillion, or 23.3 percent of GDP. This level of spending is 
simply not sustainable, and to be perfectly blunt, it is not 
creating jobs, growing the economy, or improving the lives of 
the American taxpayer.
    I continue to believe that while it is true that prudent 
investments in science and technology, including STEM 
education, will almost certainly yield future economic gains 
and help create new jobs of the future, it is also true that 
these gains can be hindered by poor decision-making. Hard-
working Americans expect and deserve better. With our 
unemployment still hovering above eight percent, they expect us 
to reduce or eliminate these programs that are duplicative and 
wasteful and examine ways to advance real job creation and 
economic growth, not just spend their hard-earned money on what 
the government assumes is best for them. The budget before us 
today makes a lot of assumptions about what is best for the 
American taxpayer.
    American ingenuity will determine our future. The President 
said in his recent State of the Union address that ``Innovation 
demands basic research.'' And he is right; however, blanket 
increases even for our federal science agencies are not the 
same as prudent investments and do not guarantee innovation. As 
stewards of the taxpayers' dollars, we have to curtail runaway 
spending and prioritize programs that lay the foundation for 
entrepreneurial success, and we must do that without picking 
winners and losers.
    All of the agencies within the Committee's jurisdiction, 
with the exception of NASA, receive modest increases in the 
fiscal year 2013 request. In better economic times, I could 
support such increases, but even then, I would hope that these 
investments would be prudently made. The increases in this 
budget are devoted mainly to new, unproven programs or provide 
significant increases in those areas that are, in my opinion, 
making assumptions for the American taxpayer. I remain 
concerned that a disproportionate amount of the increase to the 
fiscal year 2013 R&D budget, at least as it pertains to a 
majority of the agencies within the Committee's jurisdiction, 
is directed toward climate change, reducing resources available 
for higher leverage investments. This continued focus for the 
Federal Government's limited research dollars slows our ability 
to make innovative and perhaps life-altering advances in other 
equally, if not more important, disciplines.
    The National Science Foundation, DOE's Office of Science, 
and the National Institute of Standards and Technology, and the 
National Oceanic and Atmospheric Administration are all funding 
remarkable research that seeks to improve the way we live our 
lives. While we should continue to study our changing climate 
and continue to work toward keeping our air and water clean, we 
have to closely examine the billions being spent on climate 
change programs with an eye toward effectiveness. To date, we 
have already spent $40 billion with absolutely nothing to show 
for it. We are drowning in red ink, and we need to better 
prioritize and develop limited R&D dollars to areas that will 
drive innovation and economic growth.
    I also want to reiterate my disappointment with the 
President's budget as it relates to other energy and 
environmental policy. The budget doubles down on DOE's 
expensive and troubled green energy programs while flat funding 
priority basic research at the Office of Science and cutting 
R&D aimed at advancing traditional domestic energy exploration 
and production.
    Meanwhile, the President delivers a wink and a nod to EPA 
as it continues to regulate affordable energy out of existence, 
often on the basis of shaky and secretive and faulty science. 
These efforts contribute to higher energy prices throughout the 
economy and represent misplaced priorities that I hope and 
expect Congress will reject.
    And lastly, with regard to NASA, contrary to the favorable 
treatment received by the bulk of our government's civil R&D 
endeavors, NASA seems to have been singled out for unequal 
treatment. No matter that its top-line number is virtually the 
same as this year's funding, NASA's science enterprise suffers 
a 3.2 percent reduction, while the Planetary Sciences taking a 
grossly disproportionate cut of 20 percent, bringing to a 
conclusion for the foreseeable future one of the Agency's most 
exciting and visible science programs.
    Further, this budget continues to slow-roll development of 
a new heavy-lift launch vehicle. The NASA Authorization Act of 
2010, signed into law by the President, stipulated that the 
Space Launch System and the Orion crew capsule be used as a 
back-up capability for supplying and supporting the 
International Space Station crew and cargo requirements. 
Instead, NASA is pacing development of these systems to be 
operational in 2021, which could occur after International 
Space Station retirement. America's continued leadership in 
space, and even our national security, depends in large part on 
developing and maintaining this critical capability. I cannot 
stress enough the importance of accelerating the launch system 
to ensure we have an alternative method to transport people and 
cargo to ISS as well as the ability to launch missions beyond 
lower earth orbit.
    Dr. Holdren, we remain open to working with you as we move 
forward but respectfully ask that you take the message back to 
the President that to say that we continue to have significant 
concerns with his priorities for our Nation's very precious and 
limited research and development dollars is a vast 
understatement.
    We thank you and look forward to hearing from you.
    [The prepared statement of Mr. Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall

    Dr. Holdren, thank you for joining us today. I know it's been a 
busy week with the late release of the budget just coming out on 
Monday. As the President's Science Advisor and as Director of the 
Office of Science and Technology Policy, you are in a unique position 
to have a real and tangible influence on the Administration's direction 
in science and technology, so we appreciate you being here to discuss 
the Administration's R&D priorities and to answer our questions. 
Today's hearing obviously will cover a great deal of ground, so I will 
try to be brief with a few points before we hear from you.
    All told, this budget is not much different than your previous 
budget, so you will understand that my remarks are not much different 
than the ones I made last year.
    Our national debt a year ago was just over $14 trillion dollars. 
Our debt today is nearly $15.4 trillion dollars, and our Nation's 
budget deficit has increased by 190 percent between 2008 and 2012. In 
his three years of office, President Obama has accumulated more debt 
than every President from George Washington to Bill Clinton combined, 
and yet the budget we received earlier this week asks for an additional 
$3.8 trillion, or 23.3 percent of GDP. This level of spending is simply 
not sustainable, and to be perfectly blunt, it's not creating jobs, 
growing the economy, or improving the lives of the American taxpayer.
    I continue to believe that while it is true that prudent 
investments in science and technology, including STEM education, will 
almost certainly yield future economic gains and help create new jobs 
of the future, it is also true that these gains can be hindered by poor 
decision-making. Hard-working Americans expect and deserve better. With 
our unemployment still hovering above 8 percent, they expect us to 
reduce or eliminate those programs that are duplicative and wasteful 
and examine ways to advance real job creation and economic growth, not 
just spend their hard-earned money on what the government assumes is 
best for them. The budget before us today makes a lot of assumptions 
about what is best for the American taxpayer.
    American ingenuity will determine our future. The President said in 
his recent State of the Union address that ``Innovation.demands basic 
research.'' And he is right; however, blanket increases even for our 
federal science agencies are not the same as prudent investment and do 
not guarantee innovation. As stewards of the taxpayers' dollars, we 
must curtail runaway spending and prioritize programs that lay the 
foundation for entrepreneurial success, and we must do that without 
picking winners and losers.
    All of the agencies within this Committee's jurisdiction, with the 
exception of NASA, receive modest increases in the FY13 request. In 
better economic times, I could support such increases, but even then, I 
would demand that those investments be prudently made. The increases in 
this budget are devoted mainly to new, unproven programs or provide 
significant increases in those areas that are, in my opinion, making 
assumptions for the American taxpayer.
    I remain concerned that a disproportionate amount of the increase 
to the FY13 R&D budget, at least as it pertains to a majority of the 
agencies within this Committee's jurisdiction, is directed toward 
climate change, reducing resources available for higher leverage 
investments. This continued focus for the federal government's limited 
research dollars slows our ability to make innovative and perhaps life-
altering advances in other equally, if not more important, disciplines. 
The National Science Foundation, DOE's Office of Science, the National 
Institute of Standards and Technology, and the National Oceanic and 
Atmospheric Administration are all funding remarkable research that 
seeks to improve the way we live our lives. While we should continue to 
study our changing climate and continue to work towards keeping our air 
and water clean, we must closely examine the billions being spent on 
climate change programs with an eye toward effectiveness. To date, we 
have already spent $40 billion with nothing to show for it. We are 
drowning in red ink, and we need to better prioritize and direct 
limited R&D dollars to areas that drive innovation and economic growth.
    I also want to reiterate my disappointment with the President's 
budget as it relates to other energy and environmental policy. The 
budget doubles down on DOE's expensive and troubled green energy 
programs while flat funding priority basic research at the Office of 
Science and cutting R&D aimed at advancing traditional domestic energy 
exploration and production. Meanwhile, the President delivers a wink 
and a nod to EPA as it continues to regulate affordable energy out of 
existence, often on the basis of shaky and secretive and faulty 
science. These efforts contribute to higher energy prices throughout 
the economy, and represent misplaced priorities that I hope and expect 
Congress will reject.
    And lastly, with regard to NASA, contrary to the favorable 
treatment received by the bulk of our government's civil R&D endeavors, 
NASA seems to have been singled out for unequal treatment. No matter 
that its top-line number is virtually the same as this year's funding, 
NASA's science enterprise suffers a 3.2 percent reduction, with the 
Planetary Sciences taking a grossly disproportionate cut of 20 percent, 
bringing to a conclusion for the foreseeable future one of the agency's 
most exciting and visible science programs. Further, this budget 
continues to slow-roll development of a new heavy-lift launch vehicle. 
The NASA Authorization Act of 2010, signed into law by the President, 
stipulated that the Space Launch System and the Orion crew capsule be 
used as a back-up capability for supplying and supporting the 
International Space Station (ISS) crew and cargo requirements. Instead, 
NASA is pacing development of these systems to be operational in 2021, 
which could occur after ISS retirement. America's continued leadership 
in space, and even our national security, depends in large part on 
developing and maintaining this critical capability. I cannot stress 
enough the importance of accelerating this launch system to ensure we 
have an alternative method to transport people and cargo to ISS as well 
as the ability to launch missions beyond lower earth orbit.
    Dr. Holdren, we remain open to working with you as we move forward, 
but respectfully ask that you take the message back to the President 
that to say that we continue to have significant concerns with his 
priorities for our Nation's precious and limited research and 
development dollars is a vast understatement.

    Chairman Hall. At this time, I recognize Ms. Johnson for 
her opening statement.
    Ms. Johnson. Thank you, Mr. Chairman.
    Before I begin my statement, I would like to welcome a new 
Member to the Committee, Suzanne Bonamici, who is from the 
first district of Oregon. The last Member that occupied that 
seat was also a Member of this Committee, Mr. Wu. and I want to 
welcome her.
    Now, if you start me back at five because it might take me 
ten.
    Chairman Hall. I will give you the gavel if you ask for it.
    Ms. Johnson. Well, let me thank you for holding this 
hearing and I want to welcome Dr. Holdren to the Committee as 
we take our first look at the President's 2013 R&D budget 
proposals.
    Investments in research and development and STEM education 
are critical to fostering innovation and maintaining our 
Nation's competitive edge, but these are also fiscally 
challenging times, and looking through the President's R&D and 
STEM education budget, it is noticeable to me that the agencies 
are trying hard to be more efficient and achieve the most they 
can with modest increases and in many cases having to absorb 
cuts. Many of these cuts represent difficult choices and some 
of us are going to have some disagreements over those choices.
    But I commend the President for setting priorities and 
following through with his R&D budget request. It is imperative 
to our future that we continue to prioritize investments that 
will advance our knowledge, create new industries and jobs, 
give our children the grounding in science and technology they 
will need to succeed in a competitive world economy and improve 
the quality of life of all of our citizens. I believe that the 
President's budget really does that.
    Having said that, I want to talk a few minutes in which I 
have some questions. First, I have concerns about some of the 
funding for the disaster warning, prevention, and mitigation. 
2011 was the costliest year ever in terms of economic losses 
from natural catastrophes. In the United States alone weather 
in climate-related disasters in 2011 are estimated to have cost 
us $55 billion. More than a thousand people lost their lives in 
these weather-related events and an additional 8,000 were 
injured. The R&D we carry out to insure that our buildings 
withstand these disasters and our citizens have the information 
they need to be safe is necessary to protect both lives and 
property. As of 2011 show these things really do matter.
    There is one picture that sticks in my head from the 2008 
Hurricane Ike in Galveston and that is a single white house 
that was still standing after everything around it was 
destroyed. The owners of that house talked about how they had 
built it using the latest design and technologies to make their 
house resilient. These technologies and engineered designs are 
based on R&D. Much of it is supported by our federal agencies.
    I am pleased that NIST's budget request for 2013 
prioritizes this area of research. The modest increase in 
funding proposed by NIST will help communities recover rapidly 
from natural disasters with minimum loss of life, damage, and 
business disruption. But we also need to maintain and continue 
to improve our prediction capabilities and be able to 
communicate to local authorities when disasters are looming.
    I am pleased that NOAA's GOES-R Satellite is getting a 
substantial increase in its budget to keep it on track for 2015 
launch. But I have questions about the small cut to the long-
troubled JPSS satellite and how that will affect the program's 
progress and development of the instruments.
    I also worry that the proposal in the budget to close many 
of these small regional and national weather service offices 
will hamper communications with local authorities and increase 
the risk of the loss of life. I hope the Administration will 
address these concerns before they start to move on any of 
these plans.
    Second, the NASA budget proposes some significant changes 
and reductions, including to--Mars exploration. I have 
questions about how the proposed cuts to the Mars science 
program will affect U.S. leadership and critical capability in 
landing and operating spacecraft on the surface of Mars. I am 
also worried about the perception this plan may create that the 
United States is an unreliable partner in international 
collaboration and how this might affect the potential for 
future collaborations. I recognize the fiscal constraints that 
we are now in, but in some cases, international collaboration 
is the best way to both maintain U.S. leadership and get the 
most out of our investments.
    Finally, let me say a few words about STEM education. In 
December, Dr. Holdren, you sent us an inventory of federal 
investments in STEM education. It is the most comprehensive 
such inventory we have seen and it has been very helpful and we 
thank you for that.
    Earlier this week, we received a preliminary report on a 
federal strategic plan for STEM education. I am also very happy 
to see good progress on the strategic plan that we asked for in 
COMPETES. But in the meantime, this budget will propose 
significant cuts to the STEM education budgets of several of 
our science agencies. Without the detailed strategic plan to 
point to, I worry that these cuts lack sufficient 
justification. Our science agencies contain a wealth of 
intellectual capital and research infrastructure that can and 
have inspired, attracted, and educated students and the public 
in STEM for generations. We need to make some tough choices and 
we need to make some wise choices. Let us just make sure we can 
clearly justify all of those choices.
    We will have some concerns and disagreements but let me be 
clear. This is a good budget for research, innovation, and 
education under our circumstances. I look forward to working 
with the President and my colleagues on both sides of the aisle 
in the months ahead to come. We need to make sure that the 
appropriations this Congress will eventually pass properly 
reflect the need to invest in our future.
    I want to thank you, Mr. Hall, for holding this hearing and 
thank Dr. Holdren for being here today. And I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Chairman Hall, for holding this hearing and welcome, Dr. 
Holdren, to the Committee as we take our first look at the President's 
FY 2013 R-and-D budget proposals.
    Investments in research and development and STEM education are 
critical to fostering innovation and maintaining our nation's 
competitive edge. But these are also fiscally challenging times. In 
looking through the President's R-and-D and STEM education budget, it 
is noticeable to me that the agencies are trying hard to be more 
efficient and achieve the most they can with modest increases and in 
many cases, having to absorb cuts.
    Many of these cuts represent difficult choices and some of us are 
going to have some disagreements over those choices, but I commend the 
President for setting priorities and following through in his R-and-D 
budget request.
    It is imperative to our future that we continue to prioritize 
investments that will advance our knowledge, create new industries and 
jobs, give our children the grounding in science and technology they 
will need to succeed in a competitive world economy, and improve the 
quality of life of our citizens. And I believe the President's budget 
does just that.
    Having said that, I want to talk about a few areas in which I have 
some questions.
    First, I have concerns about some of the funding for disaster 
warning, prevention, and mitigation. 2011 was the costliest year ever 
in terms of economic losses from natural catastrophes.
    In the United States alone, weather and climate related disasters 
in 2011 are estimated to have cost us $55 billion. More than 1000 
people lost their lives in these weather-related events and an 
additional 8,000 were injured.
    The R-and-D we carry out to ensure that our buildings withstand 
these disasters and our citizens have the information they need to be 
safe is necessary to protect both lives and property. As 2011 showed, 
these things really matter.
    There's one picture that sticks in my head from the 2008 Hurricane 
Ike in Galveston, and that's of a single white house still standing 
after everything else around it was destroyed. The owners of that house 
talked about how they had built it using the latest designs and 
technologies to make their house resilient.
    Those technologies and engineering designs are based on R-and-D, 
much of it supported by our federal agencies. I am pleased that NIST's 
budget request for FY 2013 prioritizes this area of research. The 
modest increase in funding proposed by NIST will help communities 
recover rapidly from natural disasters with minimal loss of life, 
damage, and business disruption.
    But we also need to maintain and continue to improve our prediction 
capabilities, and be able to communicate to local authorities when 
disasters are looming. I am pleased that NOAA's GOES-R satellite is 
getting a substantial increase in this budget to keep in on track for a 
2015 launch.
    But I have questions about the small cut to the long-troubled JPSS 
satellite and how that will affect the program's progress and 
development of the instruments.
    I also worry that the proposal in the budget to close many of the 
small regional National Weather Service offices will hamper 
communication with local authorities and increase the risk for loss of 
life. I hope the Administration will address these concerns before they 
start to move on any of these plans.
    Second, the NASA budget proposes some significant changes and 
reductions, including to Mars exploration. I have questions about how 
the proposed cuts to the Mars science program will affect U.S. 
leadership and critical capability in landing and operating spacecraft 
on the surface of Mars.
    I'm also worried about the perception this plan may create that the 
United States is an unreliable partner in international collaboration 
and how this might affect the potential for future collaborations. I 
recognize the fiscal constraints that we are in now, but in some cases 
international collaboration is the best way to both maintain U.S. 
leadership and get the most out of our investments.
    Finally, let me say a few words about STEM education. In December, 
Dr. Holdren, you sent us an inventory of Federal investments in STEM 
education. It is the most comprehensive such inventory we have seen, 
and it has been very helpful, so thank you.
    Earlier this week we received a preliminary report on a federal 
strategic plan for STEM education. I am also very happy to see good 
progress on the strategic plan that we asked for in COMPETES.
    But in the meantime, this budget would propose significant cuts to 
the STEM education budgets of several of our science agencies. Without 
the detailed strategic plan to point to, I worry that these cuts lack 
sufficient justification.
    Our science agencies contain a wealth of intellectual capital and 
research infrastructure that can and have inspired, attracted, and 
educated students and the public in STEM for generations. We need to 
make some tough choices, and we need to make some wise choices. Let's 
just make sure we can clearly justify all of those choices.
    We will have some concerns and disagreements, but let me be clear. 
This is a good budget for research, innovation, and education under the 
circumstances. I look forward to working with the President and my 
colleagues on both sides of the aisle in the months ahead to make sure 
that the appropriations this Congress will eventually pass properly 
reflect the need to invest in our future.
    Thank you Dr. Holdren for being here today and thank you for your 
contributions to ensuring continued U.S. leadership in science and 
technology.

    Chairman Hall. We thank you for your good statement.
    And I want, on behalf of the Republican side here, to 
welcome Ms. Bonamici and I know we will have your assignments 
worked out to your satisfaction and look forward to working 
with you.
    If there are Members who wish to submit additional opening 
statements, your statements of course will be added to the 
record at this point.
    And at this time, I would like to introduce our witness, a 
good, honorable man, Dr. John Holdren is President Obama's 
Science Advisor, Director of the White House Office of Science 
and Technology Policy and Co-Chair of the President's Council 
of Advisors on Science and Technology.
    Prior to joining the Administration, he taught at Harvard 
and was Director of the Woods Hole Research Center. As our 
witness certainly should know, spoken testimony is limited to 
five minutes, but you are the Committee today and we won't put 
the time on you. We thank you for your very valuable time. We 
know it takes time from things you need to do; it takes time to 
be here and to plan your speech for us and then to give it to 
us and then answer questions. That is asking a lot of you. But 
each of us will have five minutes to each ask questions and ask 
you to hold your statements to as close to five or ten minutes 
as you can do so. Dr. Holdren, I recognize you at this time.

               STATEMENT OF DR. JOHN P. HOLDREN,

             ASSISTANT TO THE PRESIDENT FOR SCIENCE

   AND TECHNOLOGY AND DIRECTOR OF THE OFFICE OF SCIENCE AND 
                    TECHNOLOGY POLICY (OSTP)

    Dr. Holdren. Well, Chairman Hall and Ranking Member 
Johnson, Members of the Committee, I thank you for inviting me 
to testify today on the Civilian Science and Technology 
components of the President's fiscal year 2013 budget.
    The President in his most recent State of the Union Address 
called on all of us to help create an American economy that is 
built to last. He called on us to work toward an America that 
leads the world in educating its people, that attracts a new 
generation of high-tech manufacturing and high-paying jobs, and 
that takes control of its own energy. The President's 2013 
budget reflects those aims. It includes continuing investment 
in science and engineering research, as well as science, 
technology, engineering, and mathematics education--the kinds 
of investments that have long been at the core of America's 
capacity to innovate, to prosper, and to remain secure.
    A detailed description of the President's 2013 R&D budget 
has been provided in my written testimony, and in these brief 
remarks I will only hit a few highlights. The budget proposes 
$140.8 billion for federal R&D. That is a 1.4 percent increase 
over fiscal year 2012 enacted in current dollars. I will be 
using current dollars for all my comparisons here but you can 
easily convert to constant dollars if you like using the 
projected rate of inflation from 2012 to 2013 which is 1.7 
percent.
    Within the $140.8 billion total, the budget proposes about 
$65 billion for nondefense R&D. That is an increase of five 
percent over the 2012 enacted level. As you know, the R&D total 
fits within an overall discretionary budget that would be flat 
at 2011 enacted level for the second year in a row consistent 
with the Budget Control Act agreed to by Congress and the 
President last August. To get there, we had to make some tough 
choices.
    Even aside from defense, which saw decreases in applied 
research and in development, not all of the science and 
technology agencies got increases. But those that did included 
the three agencies that have been identified by this Congress 
and other distinguished groups as especially important to the 
Nation's continued economic leadership. The National Science 
Foundation, the primary source of support for academic research 
in most non-biomedical disciplines, got a 4.8 percent increase 
to $7.4 billion. The DOE Office of Science went up 2.4 percent 
to $4.6 billion, and the NIST laboratories, which play a huge 
role in U.S. innovation and industrial competitiveness by 
supporting research and laboratory facilities in advanced 
manufacturing and in other critical domains went up 13.8 
percent to $708 million.
    The 2013 NASA budget of $17.7 billion essentially flat with 
last year is consistent with the bipartisan agreement between 
Congress and the Administration that balances the Agency's 
several crucial missions. The budget funds continue development 
of the Heavy-Lift Space Launch System and the Orion 
Multipurpose Crew Vehicle to enable human exploration missions 
beyond Earth orbit. It also funds the operation and enhanced 
use of the International Space Station, the development of 
private sector systems to carry cargo and crew into low Earth 
orbit, a balanced portfolio of Earth and space science, 
including a continued commitment to new satellites and programs 
for Earth observation, a dynamic space technology development 
program, and a strong aeronautics research effort. It also 
continues support for a scheduled 2018 launch of the James Webb 
Space Telescope.
    The President's budget also proposes to expand, simplify, 
and make permanent the Research and Experimentation tax credit 
in order to spur private investment in R&D and it maintains 
momentum to enlist the private sector in our economic renewal 
through such programs as the Startup America Partnership, a 
nonprofit alliance of successful business owners, major 
corporations, and service providers. The budget also addresses 
the overarching importance of STEM education by investing $3 
billion in STEM ed programs across the Federal Government, a 
2.6 percent increase guided by a soon-to-be-released STEM 
education strategic plan that shows the way to cutting back on 
lower priority programs to make room for targeted increases in 
the programs that work best.
    In summary, this Administration has presented a budget 
aimed at insuring that America remains at the center of the 
global revolution in scientific research and technological 
innovation. I look forward to working with this Committee to 
make the vision of that budget proposal a reality. And I will 
be happy to try to answer any questions that the Members may 
have.
    Thank you very much.
    [The prepared statement of Mr. Holdren follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Hall. Thank you, sir. And I thank you for your 
testimony and remind all Members that the Committee rules limit 
questioning to five minutes. And at this time I will open with 
the questions and I will stay with the five minutes. We are on 
a close schedule today and our witness' time is valuable and we 
are going to try not to delay the meeting if we have a vote. If 
somebody will take the Chair, I will go vote and come back. We 
will work that out as we go.
    I recognize myself for five minutes and I will stay within 
the five minutes.
    Dr. Holdren, NASA recently announced its intent to use 
Space Act Agreements for the next round of funding for the 
Commercial Crew Program, and I know you are familiar with that, 
aren't you? And I know that you are as anxious as anybody or 
probably more so than most folks for the safety standards. But 
I have a problem with this. Under these agreements it is my 
understanding that NASA can't require the companies to meet any 
safety standards. I don't know how that could have been left 
out but how does the Agency intend to insure that these 
vehicles ultimately are going to be safe enough to take NASA 
astronauts to the International Space Station alone?
    Dr. Holdren. Well, Chairman Hall, it is my understanding 
that NASA retains the responsibility for ensuring the safety of 
its astronauts whether the launches are commercial or 
government launches. I am not familiar with the level of detail 
in these particular agreements that you are referring to, but I 
can't imagine that NASA does not retain that responsibility and 
that ability, and if there is a problem in the agreements that 
would jeopardize that, I am sure we will fix it.
    Chairman Hall. We will look closely at that. NASA as you 
know has to acquire assistance from the companies they deal 
with and a close reading of that escapes us if they can require 
the companies to meet any safety standards, but it is logical 
that they would. And we may address that to you later and would 
thank you. And I thank you for your answer to that and I 
understand it.
    In light of NASA's decision to draw from the joint Mars 
mission with the European Space Agency in 2016 and 2018, I find 
your statement a little bit puzzling when you said ``the budget 
for Mars exploration reflects an integrated strategy that 
ensures the next step for the Robotic Mars Exploration Program 
that support science and long-term human exploration goals.'' 
Since we don't have any apparent next mission to Mars, just 
what do you mean by that statement?
    Dr. Holdren. Well, first of all, Mr. Chairman, I think we 
retain--notwithstanding deciding that we do not have the budget 
to go forward with the 2016 and 2018 joint missions with the 
European Space Agency, we retain the most vigorous and forward-
leaning Mars exploration program that there has ever been, the 
most forward-leaning in the world. We have a surface rover on 
Mars at the moment. We have the most sophisticated surface 
rover ever dispatched. The Mars Science Laboratory, en route, 
was launched in November, will land in August, is the size of 
an SUV. We have two satellites in orbit around Mars at this 
moment collecting the most extraordinary data, including 
recently a remarkable set of images showing a landslide on 
Mars; a capability to observe that has never before existed. We 
have a 2013 mission to Mars Atmosphere and Volatile Evolution 
or MAVEN mission on the schedule and additional missions going 
forward.
    So I think we are in no way retreating from our commitment 
to have a vigorous program of Mars exploration, including 
laying the groundwork for human exploration.
    Chairman Hall. We want to certainly keep our work in space 
and we want to keep our access to our space station, and we 
feel endangered there by the lack of any certainty as to when 
we are going to go back there but we almost know we are going 
to do that and yet keep alive some hope for Mars, but I don't 
see anything written that is stamped that we are going back to 
Mars anytime, have any program part other than a desire to. And 
we can't spend any money going back to Mars. People can't spend 
money to go to the grocery store, so the economy is going to 
pretty well instruct you and the President and those of us who 
support those missions. And I hope you agree with that.
    Dr. Holdren. Mr. Chairman, the economy obviously has to 
remain priority one in this budget and going forward. We all 
understand that, but we also, as the President pointed out in 
his State of the Union message, cannot afford to neglect the 
investments in science, technology, innovation, and exploration 
that are going to be the basis of our future capabilities and 
our future leadership around the world. We are proposing to 
spend in this budget $1.88 billion for the heavy-lift launch 
system, one of whose purposes is to enable missions beyond low 
Earth orbit, including missions to an asteroid as the President 
has described and eventually a mission to Mars. And that is in 
the budget statements that Mars remains our eventual 
destination with these capabilities. There is another billion 
dollars for the multi-mission crew vehicle which again has in 
mind those deep space missions.
    Chairman Hall. I thank you for that and I know you are 
available for future questions even if by mail. I have gone 
several seconds over my five minutes.
    I now recognize Ms. Johnson for her five minutes of 
questioning.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Dr. Holdren, you have done quite a bit of work on the 
mandated STEM inventory and we are to receive the rest of it 
soon. Now, in the meantime, the Administration's budget for 
2013 request includes 20 percent cuts in STEM education and 
activities at a number of our agencies, including NASA and 
NOAA, EPA, and DOE. How do we justify these cuts while the 
strategic planning process is still underway? I know that we 
have to be very frugal but I am worried about being penny wise 
and pound foolish. Can you comment on that a bit?
    Dr. Holdren. Yes, I can, Ranking Member Johnson. First of 
all, as you point out, we did do an extraordinarily thorough 
inventory of the STEM education programs and what they contain. 
We will be releasing shortly the full STEM education strategic 
plan and the Congress will have that available as it ponders 
its own conclusions about the budget. But we relied very 
heavily on the information developed in that inventory and in 
the preparation of the plan in making our decisions across the 
STEM ed domain.
    As I have already indicated, we had really tough choices to 
make because under the overall constraints of budget discipline 
that are required, we obviously not only couldn't increase 
everything; we had to cut some things to make room for 
increases in others. And what we tried to do is we tried to 
look for the highest leverage where an additional dollar could 
make the biggest contribution. Those are tough choices to make 
but we believe that the education programs that we propose to 
scale back have been less effective than the education programs 
that we propose to scale up. And that was the basis of the 
decisions. And I hope after you see the STEM education 
strategic plan that you will agree with us.
    Ms. Johnson. Well, thank you. Now, one other question. The 
satellites for weather and many other things really does 
protect and give warning, save lives. Do you think that we have 
the capability with this budget to maintain our solar satellite 
program and continue with our forward activity of protecting 
our public and keeping information readily available for our 
skies?
    Dr. Holdren. Well, first of all, we in the Administration 
completely agree with you that these polar orbiting satellites 
for weather forecasting and climate monitoring, hurricane 
tracking are absolutely crucial, and we have been threatened 
for some time, in a gap that we inherited, with the possibility 
that the existing polar satellites will end their useful 
lifetime before the replacements are up there. We are doing 
everything possible to try to be sure that at very least we 
minimize that gap even if we don't now have the capability to 
avoid it altogether.
    Last year, we didn't get as much money appropriated as we 
requested those satellites. Neither did we get as much money as 
we asked for the previous year, and those gaps are hurting us. 
We are trying to make up for it in this year's budget, and one 
of the reasons that NOAA's R&D budget has gone down in the 
President's proposal is precisely to make room for more money 
for those satellites to minimize that gap because this is 
absolutely crucial. And again it underlines the tough choices 
we had to make. Nobody wanted to reduce other aspects of the 
R&D portfolio at NOAA but we absolutely have to minimize the 
gap in coverage by the satellites.
    As you point out, they are crucial among other things to 
minimize the damage from extreme weather events by providing 
information to people that enable them to make preparations.
    Ms. Johnson. Thank you very much. My time has expired.
    Chairman Hall. Thank you, Ms. Johnson.
    We now recognize Members for their questions. We will start 
with Mr. Rohrabacher, the gentleman from California, for five 
minutes.
    Mr. Rohrabacher. Thank you very much.
    And thank you very much for being with us today. These 
discussions are always enlightening. Although we have some 
major disagreements, we can do so amicably. And I will start 
with one question that is not maybe such a major disagreement.
    I notice that the budget request for the DOD's R&D budget 
request is 11.9 billion and Secretary Chu says that 770 million 
of that will go for nuclear energy. Those of us who think that 
nuclear energy should be playing a major role would suggest 
that might be less money than what would be--less money than 
compared to other energy resources that we think are a little 
more esoteric. But I would like to talk to you specifically 
about that nuclear energy request.
    Sixty million dollars is intended for nuclear waste R&D 
that would go along with the Blue Ribbon Commission report 
which we had a hearing on here not too long ago. And, you know, 
it has been said that waste is our only resource that we are 
not smart enough to use yet, and I believe that that pertains 
directly to all of this ``nuclear waste'' that we are 
confronted with. Well, there are several companies that are 
working right now on transformational fast neutron reactors. 
Toshiba's 4S reactor, GE has a thing, prism reactor, and 
General Atomics has what they call the EM2. All of these can be 
used--waste as fuel and burn up to 97 percent more of the 
material. Well, the Blue Ribbon Commission of course sat here 
and talked to us about how they were supportive of spending 
billions of dollars to put waste in a hole. I would like to 
know are we going to be spending some of our resources to help 
develop this new technology rather than putting things in a 
hole that will help build this technology that can actually 
burn this waste and put it to good use and providing 
electricity--safe electricity for the American people?
    Dr. Holdren. Well, Congressman Rohrabacher, I always enjoy 
our friendly interactions. This is a very complicated topic. We 
could spend the rest of the hearing talking about it, but let 
me make just a few points.
    Mr. Rohrabacher. All right.
    Dr. Holdren. One is I think the Department of Energy's 
budget for nuclear energy research is commensurate both with 
the promise and with the fact that nuclear energy is in many 
respects already a mature industry in the private sector. And 
you mentioned a number of the companies involved in cutting 
edge work there. The private sector does a lot of the work, as 
it should, in a domain that is this well developed.
    The second point I would make is I think all of us, my 
colleagues and I in OSTP, Secretary Chu and DOE are very 
interested in the potential of advanced nuclear energy 
technologies such as the type you mentioned.
    Mr. Rohrabacher. But are you interested in it enough to 
make sure it is funded as compared to some of these other as I 
say more esoteric----
    Dr. Holdren. Well, again I think the government's funding 
in this domain is appropriate given both the promise and given 
the role of the private sector which is large. But I would also 
point out that when you talk about burning nuclear waste, this 
doesn't actually avoid the problem of ultimately having to put 
something in the ground. And the reason is that these fast 
neutron reactors burn the heavy isotopes in the nuclear waste--
--
    Mr. Rohrabacher. Right.
    Dr. Holdren. --which to be sure have the longest half-
lives. It is beneficial to burn those and get the energy 
benefit from them. But one still ends up with a rich array, if 
you will, of fission products----
    Mr. Rohrabacher. Right.
    Dr. Holdren. --that do have to be disposed of.
    Mr. Rohrabacher. This just makes the problem a lot smaller. 
And I would suggest that this be something that if we do end up 
disagreeing on this after some non-hearing discussions, I would 
suggest that that might be something that we will have to push 
from this side on because this issue is too important just to 
talk about putting things in holes, which we could do years 
ago.
    And finally, Mr. Chairman, as I have just a few seconds 
left, let me be on the record as I am very concerned about Vice 
President Biden's statement yesterday that we should speed up 
the transfer of technology to China, which is--I have no idea 
that the Vice President could say something as stupid that but 
he did and I am very interested in finding out whether or not 
that is the policy of this Administration.
    Thank you very much.
    Chairman Hall. I come to the gentleman's rescue. The 
gentleman's time has expired so you don't have to answer that 
right now, Dr. Holdren.
    Do you insist on answer?
    Mr. Rohrabacher. It would be nice if he could answer that.
    Chairman Hall. Can you answer that with a yes or a no?
    Dr. Holdren. I will try to be approximate and brief.
    Chairman Hall. All right.
    Dr. Holdren. I have not spoken with the Vice President 
about the particular statement but certainly there are some 
technologies where it is in our interest to share with China. 
We cooperate with China, for example, on influenza. That 
enables us to get more advanced warning of flu epidemics and to 
develop vaccines. We have shared technology with China on 
nuclear reactor safety because a nuclear reactor accident in 
China would be to our detriment as well as theirs, and there 
are certainly a number of domains in which it is in our 
national interest to help China address problems that are our 
problems, too.
    Chairman Hall. All right. The gentleman's time has expired.
    We also gave China our canal down there. The former 
President did, that's my recollection.
    Recognize Mr. Lipinski at this time for five minutes.
    Mr. Lipinski. I thank you, Mr. Chairman. I want to thank 
Dr. Holdren for his service. It is an important role especially 
in these tough budget times.
    I want to first ask about--a question about the weather 
service. NOAA provides a severe weather and climate forecast 
that saves lives and property across the country every year. We 
all know the important job that they do. While I understand the 
tough choices that had to be made in this time of fiscal 
constraint, it concerns me that within the NOAA budget request, 
the National Weather Service line is one of the few line 
offices receiving a budget decrease. I am not sure this is a 
correct priority considering the increase in extreme weather 
that our country has experienced recently. So in these tight 
economic times, how does the Administration plan to balance the 
need to invest in promising innovations without sacrificing 
everyday essentials like the services provided by the National 
Weather Service?
    Dr. Holdren. I would say for some of the details on that 
question I would want to consult Administrator Lubchenco, but I 
would note that, first of all, what is crucial for the National 
Weather Service to do its job are the basic data coming from 
observations of what the atmosphere is doing. And if we cannot 
find the money to support the satellites from which those data 
come, then all the money in the world poured into the Weather 
Service won't make up for the deficit. And again, I think part 
of the challenge in NOAA has been notwithstanding now a couple 
of years of appropriations falling short of what we thought was 
needed for the polar orbiting satellites. We are now trying to 
make up for that gap.
    But I also think that we are doing more in promoting 
symbiosis and synergism among the different components of Earth 
observation, satellite monitoring and so on among NASA, NOAA, 
the USGS. And if you look at the budget for the Global Change 
Research Program which brings together all of those capacities 
with 13 agencies participating, it is increasingly focused on 
providing the sort of information that firms and individuals, 
businesses, farmers need in order to anticipate and respond to 
extreme weather events and climate change. So we are trying to 
do more in that domain overall.
    Mr. Lipinski. I can appreciate the need to put the funding 
in for--to get the data. I think we just also need to be 
careful that we have the people on the ground who--and the 
offices on the ground to do what we need with that data.
    I want to take the rest of my time to move on to another 
issue and that is prize competition. As you know, the COMPETES 
Reauthorization included a prize competition initiative based 
in part on a GENIUS Act I introduced with Representative Frank 
Wolf. Last year, you told me you were enormously enthusiastic 
about the potential prizes and I was pleased to see the launch 
of Challenge.gov to highlight and promote this initiative. How 
has this new authority been used over the past year?
    Dr. Holdren. Well, first of all, we remain enormously 
enthusiastic about prizes and we have now authorized all of the 
departments and agencies to use competitions and prizes to 
achieve their goals, to advance their priorities. And----
    Mr. Lipinski. Is there anything new on the horizon that you 
can talk about?
    Dr. Holdren. Well, in fact we have a full-time person in 
OSTP who does nothing but work with the agencies on prizes and 
competitions. And there is a bunch of stuff in the pipeline. I 
mean it would--again it would take the rest of this hearing to 
talk about all of the prize and competition activity that is 
going on, but I think this is one of the richest and most 
productive domains of getting more for less. And I thank you, 
Congressman Lipinski, for your role in pushing this forward. It 
is simply an enormous high-leverage opportunity and we are 
exploiting it.
    Mr. Lipinski. I appreciate that and I like to have the 
opportunity since I have only have 30 seconds left--I won't be 
able to go into this more--but to discuss more with you where 
this is going and where the different agencies are taking this. 
But with that I will thank you and yield back the balance of my 
time.
    Chairman Hall. Thank you, Mr. Lipinski.
    The Chair at this time recognizes the gentleman from Oak 
Ridge, Mr. Fleischmann, from Tennessee, five minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Welcome, Dr. Holdren. I have a question in regard to the--
actually two-part question in regard to fiscal year 2013. The 
R&D budget details efforts to strengthen our Nation's 
competitiveness and long-run economic growth. My first 
question, sir, is what is the Administration doing to measure 
and evaluate the economic impacts of basic research funding? 
And my second question, sir, is what methods can the Federal 
Government use to prioritize funding areas of basic research 
both within the area of science and across areas of science?
    Dr. Holdren. Congressman Fleischmann, those are really 
tough questions as you know. We have been working on the STAR 
METRICS program to develop ways to better measure the 
effectiveness of our investments in research and development, 
but you mentioned in particular basic research. It is very easy 
to measure the success of basic research long after the fact 
such as the NSF grants to two Stanford graduate students named 
Brin and Page who subsequently, on the basis of the research 
they did, founded Google, which now has $64 billion in annual 
revenue and employs 20,000 people. So we can look back and say, 
``gee, that was a great investment in basic research but it is 
the character of basic research,'' that at the time you are 
funding it and the time you are doing it, you have no real idea 
what the benefits are going to be.
    And so we have to continue to rely, as we always have, on 
the competitive peer review process to try to identify the most 
exciting, interesting, and promising domains of basic research; 
but we are never going to be able to quantify in advance rather 
than retrospectively what is going to work versus what doesn't. 
And at the same time I would say it is not stopping us from 
trying to get better through the STAR METRICS effort at 
understanding what works best in the way we go about 
prioritizing research.
    Your other question has to do with cross-agency, cross-
department, cross-topic prioritization, and all I can say there 
in the brief time available, again, is that we try to think 
about it in terms of the greatest bang for the buck. Where will 
an additional dollar do the most good, relatively speaking? But 
it is fundamentally a very, very difficult task. And as you 
know, what actually emerges, emerges from an interplay between 
the Administration and the Congress that somehow integrates 
divergent views on where the leverage is.
    Mr. Fleischmann. Thank you. Mr. Chairman, I yield back.
    Chairman Hall. I thank you, and at this time we recognize 
Mr. McNerney, gentleman from California, for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Holdren, you mentioned work on public-private 
partnerships and innovation in entrepreneurship. Would you be 
able to give an estimate as to how many jobs have been created 
by these startups say over a specific period of time like a 
year or so?
    Dr. Holdren. The short answer is at this time I would not. 
I am reluctant to make particular claims about numbers of jobs. 
I think those tend to be very squishy. You know, I think the 
data indicate certainly that we are moving in the right 
direction, but I think it is too soon--although my colleague 
Alan Krueger, the Chairman of the Council of Economic Advisors, 
might be able to come up with a number. At this point I cannot. 
I will check with him and if he has got a number, we will 
certainly submit it following the hearing.
    Mr. McNerney. And you feel that the current budget proposal 
has enough resources to continue that progress in the jobs 
creation?
    Dr. Holdren. I think it does, yes.
    Mr. McNerney. Thank you. Dr. Holdren, one of the greatest 
technical assets available to the Nation is the capability to 
maintain bio-national laboratories. The national laboratories 
such as Sandia National Laboratories and Lawrence Livermore 
National Laboratory in California do provide a tremendous 
amount of expertise in areas critical like cyber security, 
high-performance computing and modeling, biosciences, and so 
on. Given the technical capabilities at the labs, do you see 
opportunities for leveraging the federally funded research and 
development centers to provide technical support to the 
Administration and other government agencies?
    Dr. Holdren. The short answer is absolutely yes. The 
national laboratories are enormous resources, sources of 
discovery, invention, and innovation. We have many programs 
that are trying to beef up and accelerate the flow of ideas and 
prospective products from research universities and national 
laboratories into the private sector and into the marketplace. 
The energy innovation hubs that the Secretary of Energy 
initially proposed and have now been funded in considerable 
measure include linking national laboratories, research 
universities, and firms to get this translation done. And we 
need to do more of it.
    Mr. McNerney. Are you concerned about the capabilities of 
these labs considering possible future budget and funding?
    Dr. Holdren. Congressman, I am concerned about the health 
of all of our R&D ecosystem, and in fact the President's 
Council of Advisors on Science and Technology, which I Co-
Chair, is in the late stages of a study of what we need to do 
to maintain the quality of that R&D ecosystem across our 
country. And that includes the national labs, the research 
universities. It includes the pipeline from schools and 
community colleges to firms and enterprises. I think we have to 
be very attentive to the health of this enterprise and we have 
to make the investments or the sources of innovation that we 
are going to need aren't going to be there.
    Mr. McNerney. Well, I thank you for that answer and I share 
your concern.
    Dr. Holdren, this Committee has held several hearings on 
the safety of hydraulic fracturing. Does the budget in your 
opinion have enough resources devoted to research in this area 
to help address the growing public concerns about possible 
contamination of deep water supplies?
    Dr. Holdren. Congressman, the FY 2013 budget includes the 
proposal of the President to include $45 million for an 
interagency R&D initiative aimed at exactly those questions. 
That's a 150 percent increase over the 2012 enacted level. The 
research will be coordinated among the Department of Energy, 
the U.S. Geological Survey, and the EPA. We are convinced that 
this resource can be exploited safely, but we have to make the 
investments to be sure that is the way it happens, because if 
we don't ensure that it is in fact developed safely with 
appropriate attention to the quality of our water supplies, 
among other environmental values, then the public is not going 
to let it happen. And we need that resource so we need to do it 
right and we are determined to do it right.
    Mr. McNerney. Thank you for that answer.
    I yield back.
    Chairman Hall. The Chair at this time recognizes Mr. 
Hultgren, the gentleman from Illinois, for five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Dr. Holdren, one of my many constituent physicists recently 
reminded me that science comes in two forms. I like the way 
that he put this. He said that two forms of science are 
Edisonian science, the application of scientific principles to 
build stuff; and the Einsteinian science, the effort to 
discover the basic principles themselves. Our system of free 
enterprise does a very good job at the Edisonian science--
Apple, General Electric, Intel, IBM are all examples of that. 
And since World War II, the United States has been a global 
leader in the public investment and Einsteinian science as 
well. But I am deeply troubled by the President's budget 
request as it seems to be quite a pronounced departure from 
this half-century legacy of American leadership in fundamental 
research, especially when high-energy physics has made major 
concessions, in particular closing down the Tevatron.
    BES received $110 million of the increase where all other 
programs in Department of Science received 8 million--110 
million to $8 million. I wonder, do you think that is an 
equitable distribution, particularly when Fermilab was cut by 
eight percent in the President's budget request in the midst of 
an important transition to define a new vital U.S. role in 
particle physics? If you think this is equitable, I want to 
know what your plans are for Fermilab.
    Dr. Holdren. Congressman Hultgren, the concept of equitable 
is a difficult one to apply in making tough choices among 
competing scientific priorities. Again, we have gotten 
tremendous benefit out of Fermilab. We have gotten tremendous 
benefit out of the Tevatron, but I think in terms of the 
Tevatron, there are now other machines in which we participate 
that are more at the cutting edge and are yielding more cutting 
edge results than we can now get from the Tevatron. We could 
still get some good stuff from the Tevatron and in better times 
we would have more funding for it, but we made, as I said, some 
tough choices here.
    The Fermilab is a national asset. I want to see it 
maintained; I want to see it healthy. And--but I would simply 
reiterate that in this very demanding environment, we tried to 
make judgments about where the greatest value at the margin was 
for an additional dollar that could be added one place or 
another. And since we had to stay flat overall, dollars added 
one place had to be taken away in another.
    Mr. Hultgren. First, I would say Fermilab has been 
incredibly cooperative as far as shutting down the Tevatron and 
also in Hadron and CERN, all the work that is going on there. I 
know they have been a great partner over there. But I also 
absolutely believe this is a devastating departure from what we 
have done historically, our commitment again to discovery.
    Specifically, I want to get on to LBNE, Long-Baseline 
Neutrino Experiment. It has been extensively reviewed, 
including by the National Academy and has been part of the 
plans for the field for the last four years. The President's 
budget request severely cuts LBNE and does not even provide the 
funds to sustain the ongoing operations at Homestake. What are 
the Administration's intentions with regard to LBNE and how is 
this momentum-killing approach an effective use of taxpayer 
funding or helping to drive U.S. scientific leadership?
    Before you answer that, I do want to remind you of the 
following: that the PBR supports for the design of LBNE has 
been more than halved from fiscal year 2012 and Homestake mine 
is already operating at bare-bones efficiency and again the PBR 
cuts it further by 33 percent to levels insufficient to 
maintain minimum operations.
    Dr. Holdren. Well, Congressman Hultgren, I have to say this 
is really painful. It is painful for me and painful for my 
colleagues to have had to engage in making these very tough 
choices. We are interested in keeping LBNE alive. It is, as you 
noticed--as you have pointed out--just limping along in this 
budget. I wish we could do better but to do a lot better we 
would have to take the money from someplace else, and our 
judgment was that the places we are putting it have at this 
point have higher potential on the margin. But I cannot tell 
you how much I sympathize with the view that important 
scientific projects in which we have invested in the past and 
would like to continue to invest in the future simply cannot be 
afforded under the current fiscal restraints. And we are 
constantly finding ourselves in this position where our friends 
in the Congress reiterate the dilemma that we already know we 
have, is that everybody wants to see the deficit shrunk and the 
overall budget smaller, and everybody at the same time wants to 
see the projects and programs with which they are most familiar 
and they know are valuable continued and expanded. And those 
views are simply--they can't be completely reconciled.
    Mr. Hultgren. Well, I do want to continue to work with you 
on this. I just have to disagree. I think there are some things 
that we can't afford not to do. This is something that has made 
America great. By us failing to do basic scientific research, 
we are failing our young people, we are failing our future. And 
again, there is huge discrepancy there when 110 million of 
increase goes to one program and 8 million goes to everything 
else. Something can be done to even that out to make sure that 
we are not absolutely cutting the legs out from programs that 
are doing good work that really are the promise for our future, 
future generations. So I do look forward to working with you.
    With that, I yield back.
    Chairman Hall. I thank the gentleman.
    The Chair recognizes Ms. Fudge, the gentlelady from Ohio, 
five minutes.
    Ms. Fudge. Thank you, Mr. Chairman.
    And thank you, Dr. Holdren, for your testimony today.
    Certainly, I was pleased to see that the funding request 
for ARPA-E represents a $75 million increase from fiscal year 
2012. For the record, would you please explain the importance 
of this program and why the Administration chose to increase 
the funding by this amount?
    Dr. Holdren. Well, of course, the whole point of ARPA-E is 
to invest in high-risk, potentially high-return research, 
transformational--potentially transformational research 
thinking outside the box. This is what the model of the Defense 
Advanced Research Projects Agency did with such huge success. 
We think ARPA-E has already shown a terrific track record in 
picking great ideas to support and it is our strong impression 
that there are more great ideas to support that have been 
supported up until now. And so we are trying to ramp the budget 
up. We didn't actually get as much as we asked for in each of 
the past years, but hope that Congress will agree with us this 
year on this sum because they are doing a great job over there. 
And the future of America's energy supply, the future of our 
capacity to reduce our dependence on foreign oil, our capacity 
to provide affordable and reliable energy in ways that also 
respect the environment and reduce the risk from climate 
change, we have got to be doing this outside-the-box thinking 
and ARPA-E is the place where we are trying to do a lot of it.
    Ms. Fudge. Thank you. I wholeheartedly agree.
    Second question, Dr. Holdren, during the Science 
Committee's last hydraulic fracturing hearing, Dr. Goldstein 
from the University of Pittsburgh and a former Assistant 
Administrator of the Office of Research and Development at EPA 
explained that there are very few public health scientists 
engaged in research related to hydraulic fracturing, and more 
generally, the impacts of the current gas drilling boom. How 
will the initiative take public health impacts into effect and 
could it be helpful to include the National Institutes of 
Health in this new initiative?
    Dr. Holdren. Well, certainly the new initiative plans to 
look at potential health effects, particularly, of course, from 
water contamination and how to ensure to minimize those. The 
Environmental Protection Agency, of course, is very much 
involved and has that responsibility. They routinely draw on 
expertise not only within the EPA but outside it, including in 
the NIH when they need it. And I am sure they will be doing so 
in this case.
    Ms. Fudge. Thank you. As you may know, NASA's fiscal year 
2013 request for education is $100 million, a $36 million 
reduction from the appropriation for 2012. How can NASA make 
progress in improving the effectiveness of its education 
programs if the Agency is constantly reorganizing and 
restructuring its activities?
    Dr. Holdren. You know, we constantly have a big challenge 
with NASA; it is the same challenge I was describing a moment 
ago, namely, budget caps and too many great and important 
missions inside that agency to fit within the budget. We all 
wish, again, that we had more for virtually every program in 
NASA, but when we did the comparative evaluation that I 
mentioned before when we looked at STEM education programs all 
across the government and tried to figure out where the highest 
gain, highest leverage for additional dollars would be, where 
we should increase, where we should cut, the NASA program lost 
a bit in that domain. And that was partly the result of the 
comparative assessment across the STEM ed program and partly 
the result of the overall pressure in NASA to do everything and 
to do everything well. Those are tough balancing acts. We did 
the best we could. I think it makes sense but I am sure that 
you in Congress will be having another look at it.
    Ms. Fudge. I thank you, Mr. Chairman. I will stay in my 
five minutes. I yield back.
    Chairman Hall. And I thank the lady.
    Recognize Mr. Cravaack, the gentleman from Minnesota, for 
five minutes.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Dr. Holdren, thank you for coming today. Dr. Holdren, when 
I was researching this, I came across something that was a 
little bit more chilling for me actually. Now, I am a member of 
Homeland Security Committee, as well as a 24-year Navy veteran, 
spent three years in the South China Sea. My experiences 
working in both these capacities has made me acutely aware of 
the threats that China poses to our national security. Thus, I 
am always concerned when I hear about the United States in any 
capacity collaborating with China on research projects, data 
sets, technology knowhow that could be used as dangerous 
strategic rival and adversary to our global influence.
    It is my understanding that your office decided to engage 
in these sorts of collaborations with China by participating in 
the U.S./China strategic and economic dialogue in May of 2010 
despite knowing full well that there was language signed into 
law by President Obama prior to your engagement in those U.S./
China dialogues that clearly prohibited NASA and OSTP from 
using federal funds to develop, design, plan, promulgate, 
implement, or execute a bilateral policy program, order, or 
contract of any kind or participate, collaborate, or coordinate 
in this fashion.
    It is my further understanding that the GAO investigated 
this issue and on October 11, 2011, issued an opinion that OSTP 
violated the law under the Anti-deficiency Act, which is a 
fiscal statute that makes it illegal for federal agencies to 
spend funds that have not been appropriate by Congress.
    Therefore, Dr. Holdren, I have two questions for you, sir. 
First, does OSTP plan to continue to participate, collaborate, 
or coordinate bilaterally with the Chinese this year in the 
same manner that is found by the GAO to be in violation of the 
law? A simple yes or no will do, sir.
    Dr. Holdren. To that question a simple yes or no is not 
practical.
    Mr. Cravaack. Please explain.
    Dr. Holdren. The 2011 appropriations language was deemed by 
the Office of Legal Counsel and the Department of Justice in a 
formal opinion to be inconsistent in part with the 
Constitutional prerogatives of the President to conduct foreign 
diplomacy. And I was so advised and I was advised that the 
opinions of the Department of Justice are binding on officials 
of the Executive Branch, including when GAO has a different 
opinion.
    The FY 2012 appropriations language is different. Under the 
FY 2012 appropriations language, which now applies, we are 
allowed, both in OSTP and NASA, to engage in interactions with 
China provided that we supply the Congress with 14 days' notice 
of our intention to do so and certify that we will not be 
transferring sensitive information either with respect to 
security or intellectual property in the course of those 
interactions. So, of course, in any interactions with China 
going forward, of which some are planned, the strategic and 
economic dialogue scheduled for May in Beijing and surrounding 
meetings of the Joint Commission on Science and Technology and 
the U.S./China dialogue on innovation policy, we have already 
notified the appropriate Members of Congress of our plans to 
participate and have certified that we will not either be 
transferring sensitive information or meeting with individuals 
who have been deemed to be directly involved in human rights 
violations. So we will be in our future activities within the 
current law. In terms of our past activities, the binding legal 
authorities in the Executive Branch were our guide as to what 
we should and should not do.
    Mr. Cravaack. With that said, sir, GAO did find that 
determining the constitutionality of the legislation, the 
providence is in the courts and also said ``in our view, the 
legislation that was passed by Congress and signed by the 
president therefore satisfies the Constitution's bicameralism 
presentment requirement that is entitled to heavy presumption 
in favor of the constitutionality of the rule.'' And with that 
said, let me go--even with the Ranking Member saying that 
emphasis should be for us in the United States to succeed in 
competitive technology, and yet, notwithstanding the obvious, 
the serious legal implications of your continuation to do so in 
my opinion, why do you feel it is in the interest of the United 
States of America to share technology that may have a 
proliferation of technology that can be used for military 
purposes and research with the country that directly competes 
with the United States and is intent on stealing information 
quite emphasized on American technologies and innovations? I 
don't understand that, sir. Could you explain it to me?
    Dr. Holdren. Sure. First of all, I do not believe in 
sharing with China technology or information that could give 
them an advantage in the security domain or in areas in which 
we compete with China. Our cooperation with China is strategic. 
It focuses on domains in which it is in our interest for China 
to improve its capabilities. It is in our interest to avoid 
nuclear reactor accidents in China. It is in our interest to 
avoid the theft of nuclear materials from Chinese facilities. 
It is in our interest to cooperate with China on influenza so 
that we get more notice of influenza strains that develop in 
that part of the world before they get here. It is in our 
interest to work with China to help them reduce their emissions 
of pollutants that affect our wellbeing. Those are the kinds of 
focuses in which we engage with China in a cooperative way.
    And I should add that the U.S./China Science and Technology 
Cooperation Agreement, under which we operate, was concluded in 
1979 and has been observed and expanded by every Administration 
since, Republican as well as Democratic, precisely because it 
has been recognized on both sides of the aisle that 
strategically focused cooperation with China is in the national 
interest of the United States.
    Mr. Cravaack. I am out of time for a very long debate and I 
will yield back.
    Chairman Hall. I thank the gentleman for his good 
questions.
    Ms. Lofgren, we recognize you for five minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Dr. Holdren, for being here and for your 
good work on behalf of our country's future. I wanted to learn 
more about the proposals in fusion energy and high energy 
physics generally. We have got the top line reduction, but it 
is hard to tell what that is going to mean on the ground. And I 
would just like to note that I think a better process for 
putting the budget together would be to actually involve the 
national labs at the very beginning in putting together the 
proposals rather than having them find out about the same time 
we do what the top line number is going to be.
    Lawrence Livermore Lab is not in the district I represent 
so--but it is something that has received--the National 
Ignition Facility has received bipartisan support for decades. 
We have spent billions of dollars to get the project to where 
it is today. And on January 26, the announcement was made that 
with a very high degree of confidence, they believed that 
ignition will be achieved within the next 6 to 18 months. I 
want to make sure that the budget that we have here doesn't 
upend decades of work and billions of dollars that have been 
supported on a bipartisan basis to get where we are today when 
we are almost to the end of the effort. Can you enlighten us on 
this?
    Dr. Holdren. Well, let me say, first of all, that the 
national laboratories are involved in the budget process 
because of their close connections with the Department of 
Energy. The leadership of the laboratories consult with the 
leadership in the Department of Energy in determining that 
submission.
    Ms. Lofgren. Let us go back to that later. Could you get 
specifically to the NIF?
    Dr. Holdren. I can't go specifically to the NIF because I 
don't have in front of me that level of disaggregation of the 
budget. I have long and affectionate connections with Livermore 
having been on the staff there in the early '70s. I was a 
consultant to the Inertial Confinement Fusion Program for about 
20 years thereafter, so I recognize how important it is, how 
valuable the information from that facility is, but I can't 
answer your question at this moment about the budget. But I 
will be happy to get back to you about it.
    Ms. Lofgren. Can you answer--I mean on the top level sheet, 
we have the--I have got to put my glasses on--the .7 and the 
1.8 reduction in fusion energy and high energy physics. Do you 
have any idea what that reduction is going to translate to in 
terms of----
    Dr. Holdren. Well, part of the reduction in fusion is that 
we are not going to be able to increase the U.S. contribution 
to the International Thermonuclear Experimental Reactor at the 
rate that was programmed in the ITER agreement, and we have 
already spoken with our partner countries about that. So there 
is some hit on the fusion side--the magnetic fusion side there. 
But I am simply not in possession off the top of my head of 
what the numbers are on the National Ignition Facility.
    Ms. Lofgren. Could you do this----
    Dr. Holdren. I will get back to you.
    Ms. Lofgren. --would you get back to me?
    Dr. Holdren. I would be happy to do that.
    Ms. Lofgren. Because I think back on when a former Member 
of Congress, Bill Baker, and some may remember him, I mean this 
has been a rare bipartisan, you know, effort to make this work 
and it would just be a tragedy for the country to step back at 
the last minute when we are almost there.
    I will just shift now to the NASA budget. Given where we 
are in terms of the overall budget, I guess I am one who thinks 
that you have done a reasonably good job in trying to put 
something together that will work, and I want to compliment you 
for that. In terms of the international effort, you know, I 
remember being on the Committee in the '90s and the arguments 
we had on the International Space Station, and I will say in 
terms of the money and the collaboration, it didn't work out 
the way it was planned. It became really more of a foreign 
policy effort for U.S./Russia relations than it did for 
anything else.
    So I guess, you know, on a global level, when I look at 
what is happening in the economy and the EU, I have a high 
degree of skepticism about not just our involvement but 
ultimately their involvement. And so I think the proposal being 
made by the Administration is a prudent one and I think the 
overall NASA budget is a pretty solid one. I wanted to 
compliment you for that.
    And Mr. Chairman, I yield back.
    Chairman Hall. I thank the lady for yielding back.
    Recognize Mr. Smith, the gentleman from Texas, for five 
minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Holdren, thank you for your service. Thank you for your 
expertise.
    I would like to first follow up on a couple of questions 
that you have already been asked. The Chairman, Mr. Hall, asked 
you a few minutes ago about the Administration's commitment to 
going to Mars. You answered affirmatively. I wonder if that 
commitment means that you feel that there will be no more 
delays in the development of the SLS? As you know, there was a 
six month delay last year. Do you foresee us staying on 
schedule with the development of the SLS?
    Dr. Holdren. Congressman Smith, I have cloudy crystal ball 
when it comes to predicting whether or not further delays will 
be encountered, particularly in projects as complicated as 
rocket science. I did some rocket science early in my career 
and I know there are many pitfalls. So I cannot guarantee you 
that there will not be further hurdles that have to be 
overcome, but our expectation is to keep SLS on schedule. We 
want to have that capability.
    Mr. Smith. You----
    Dr. Holdren. We share that with the Congress.
    Mr. Smith. You were not aware of any plans to delay it? 
Okay, thank you.
    To follow up on another question you were asked about 
fracking and no doubt you haven't seen the report yesterday, 
but yesterday, at the meeting of the American Association for 
the Advancement of Science in Vancouver, there was an important 
report that was released showing that many of the concerns 
expressed about fracking could be addressed, and I just hope 
you will take some time to look at that report and that might 
help you get beyond sort of the cautious approach to fracking 
in the future.
    Dr. Holdren. Look, it is also my view that the concerns can 
be addressed. I want to make sure that we do address them----
    Mr. Smith. Right.
    Dr. Holdren. --so that we are able----
    Mr. Smith. Right.
    Dr. Holdren. --to benefit from that very important 
resource.
    Mr. Smith. The report was given by a former head of the 
Geological Survey, so he has some credibility on the subject.
    Another question is this: the Environmental Protection 
Agency claims I think 12 or $13 billion in savings from their 
proposed mercury standards on utilities. Members of Congress 
have not been able to get our hands on the data or analysis 
that they relied upon after many months of effort. Can you get 
us that information as well as let us know who paid for the 
analysis?
    Dr. Holdren. I believe I can and I will certainly look into 
that as soon as I leave this hearing.
    Mr. Smith. Okay. And when would you be able to get us that 
information do you think? Within a week?
    Dr. Holdren. Again, my crystal ball is cloudy but I don't 
see any reason that we cannot get that information for you, and 
so I will start working on it immediately.
    Mr. Smith. Thank you, Dr. Holdren.
    Thank you, Mr. Chairman. I yield back.
    Chairman Hall. The gentleman yields back.
    Recognize Mr. Tonko, the gentleman from New York, for five 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Holdren, as an energy expert, I believe you would agree 
with me that the cheapest energy we are ever likely to get is 
through improvements in efficiency. We have made some progress 
in that area but I believe there is much more that we can do. 
Would you talk about the initiatives in the budget to improve 
efficiency in production, storage, and use of our energy 
supplies?
    Dr. Holdren. Wow, that is a wonderful question. I was one 
of those who was saying actually in the 1970s that increasing 
energy efficiency is the cheapest, safest, fastest, cleanest, 
surest way to enhance our energy system and our energy 
prospects. And the renewable and efficiency division in the 
Department of Energy is proposed for very substantial increases 
in this budget exactly for that reason. If you look at the 
focuses of the energy hubs, which are one of the centerpieces 
of Secretary Chu's innovation strategy in energy, there is a 
hub on improving battery and energy storage technology; there 
is a hub on building energy efficiency; and the sixth hub, 
which is now being proposed, is a hub focusing on the grid and 
the efficiencies that can be derived there. So we have a big 
emphasis on increasing efficiency precisely because of the 
leverage that you point to in that domain. It passes our test 
of where additional dollars do the most good.
    Mr. Tonko. Thank you. The President has also focused on 
strengthening our manufacturing sector, and by strengthening 
it, I believe we need to address again the sort of innovation 
and efficiency that is possible within manufacturing. There are 
those who believe in that investment; others would suggest that 
we are picking winners and losers and it becomes 
interventionist in design and unacceptable. Can you address 
areas where government sponsorship in your opinion of research 
could fill gaps that the private sector alone cannot?
    Dr. Holdren. Well, Congressman, I would answer that in two 
ways. First of all, we know that the private sector tends to 
under-invest in basic research for the very simple reason that 
the results are unpredictable, the rate of return cannot 
realistically be estimated, and many of the benefits are not 
appropriable by the investor. That is, the results of basic 
research propagate in ways that many different people benefit 
rather than just the folks who paid the bills. For that reason, 
it has always been the case that the government has had to be a 
leader in investment in basic research, and yet the flow of 
discovery that comes from basic research feeds the innovation 
that produces the next generation of products, process 
improvements, new techniques for manufacturing that ultimately 
benefit the economy.
    The second thing I would say is as opposed to picking 
winners, what the government is doing in the way of encouraging 
innovation beyond its strong investments in basic research, 
which is its historic responsibility in this domain, are cross-
cutting systematic ways to encourage innovation in the private 
sector. So again we talk about simplifying and making permanent 
the research and experimentation tax credit. We talk about 
unlocking access to capital, including a $2 billion fund being 
proposed to match private funds investing in underserved 
markets and early-stage companies. In the Startup America 
Initiative we have a program for connecting mentors to 
entrepreneurs. So we take successful entrepreneurs who mentor 
emerging ones on what it takes to succeed to improve the 
success rate in entrepreneurship.
    We have been building up a variety of ways, as I mentioned 
before, to connect our research universities and their 
laboratories and the national laboratories to the private 
sector in a manner that will accelerate the flow of discovery 
into practical innovations in the private sector without 
respect to picking particular products or potential products or 
particular processes but strengthening the innovation ecosystem 
that produces these flows.
    Mr. Tonko. Thank you very much.
    Mr. Chair, I yield back.
    Chairman Hall. The Chair now recognizes the gentlelady from 
Illinois, Ms. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. And thank you for 
being here, Dr. Holdren.
    In your testimony you referred to the DOE Office of Science 
as a jewel-in-the-crown agency that is especially important to 
this Nation's continued economic leadership. And you also note 
that the President remains committed to doubling the budget of 
key basic research programs at the Office of Science along with 
NIST and NSF. However, the budget request for the Office of 
Science is proposed to increase by only 2.4 percent. At that 
rate, it would take about 30 years to double the budget and 
that doesn't even account for inflation and what would occur 
during that time.
    And meanwhile, we have got some unproven maybe green energy 
programs within DOE such as EERE and ARPA-E, proposed to 
increase by 29 percent and 27 percent respectively. Why is the 
funding for the Office of Science such a low priority relative 
to other DOE programs?
    Dr. Holdren. Well, first of all, we are committed, we 
remain committed to keeping the NSF, the DOE Office of Science, 
and the NIST laboratories on a rising trajectory. Clearly, the 
budget constraints under which we now operate have made the 
goal of doubling more difficult, and unfortunately, your 
arithmetic is correct. At that growth rate in the Office of 
Science it would take a long time for it to double. And we have 
made tough choices across NSF, DOE Office of Science, and NIST 
laboratories trying to look for the most promising 
opportunities to increase things.
    When you mention the unproven technologies in DOE that are 
getting attention, of course, it is precisely the unproven 
technologies that require government attention. The proven 
technologies will be pursued successfully by the private 
sector. And we think there is a large societal interest in 
getting some of the unproven technologies into the proven 
category because they will bring big benefits in reduced oil 
dependence, reduced import dependence, improved environmental 
characteristics, and so on.
    Mrs. Biggert. What does worry me is that we have had, you 
know, the green energy--we could call it boondoggles I guess 
such as Solyndra, and that might signal that the DOE should 
make the well managed world class basic research at DOE a 
higher priority.
    But my next question is about a different subject and that 
is the--our Nation's communication system is repeatedly 
threatened by cyber attacks making the protection of critical 
infrastructure a national priority. How does the Administration 
propose to use our supercomputing resources to spur new 
research that keeps us ahead of ever-innovating attackers?
    Dr. Holdren. I would love to be able to answer that 
question, but of course a lot of what we are doing in that 
domain is understandably classified. But you can be sure that 
cybersecurity is a very high priority for this Administration. 
We understand the threat. We have a cybersecurity strategy. We 
are employing all manner of scientific and technical resources 
to try to stay on top of this threat, which is real and is 
large.
    Mrs. Biggert. Can you say anything about how the research 
can be connected to industries and agencies that need to 
protect their systems?
    Dr. Holdren. Absolutely I can. Within the President's 
Council of Advisors on Science and Technology, which is set up 
to provide the Administration reach into the private sector, 
the academic sector, the philanthropic sector, we have the 
former CEO of Google, the Chief Technology Officer of 
Microsoft, and so on and so forth as members of PCAST. We have 
a PCAST working group on cybersecurity that is focused on 
exactly this question, but we also have within the government a 
variety of committees--the National Science and Technology 
Advisory Committee, NSTAC, which is composed of the leaders of 
the information industry--who come together in Washington and 
advise the Administration, Department of Homeland Security, the 
National Security Agency, Central Intelligence, the White House 
on how we can coordinate our efforts in cybersecurity. So this 
is a big focus.
    Mrs. Biggert. Thank you. Thank you very much.
    I yield back.
    Chairman Hall. The Chair now recognizes the gentleman from 
New Mexico, Mr. Lujan, for five minutes.
    Mr. Lujan. Mr. Chairman, thank you very much as well.
    And Dr. Holdren, thank you so much for being here with us. 
We appreciate the commitment to research and development and 
innovation as keys to America's economic success.
    And Mr. Holdren, I want to jump right into the area that--I 
appreciate the questions that have come from our colleagues, 
the attention to the national labs from both sides of the aisle 
with Mrs. Biggert, Ms. Lofgren, as well as Mr. McNerney, and 
the explanation to Mr. Tonko with the innovation ecosystem. I 
think inherently therein lies the answers to many of America's 
economic woes when we talk about innovation as well as economic 
strength are America's national labs. Coming from a state that 
has both Sandia and Los Alamos National Laboratory, we 
understand the importance of that science and the research that 
takes place there.
    We would ask Mr. Holdren--or Dr. Holdren, now that you have 
had the ear of the President--and with Dr. Chu--that when we 
are talking about the Entrepreneurial Leave programs that many 
of our scientists, physicists, engineers, mathematicians, and 
experts at our national labs can engage in as well addressing 
the conflict of interest inherently associated with making them 
more available to small businesses, entrepreneurs out there--
that we address that and look closely at that to see what can 
be done because there is good work that is being done and it 
looks good on paper, but all indications is there is dramatic 
room for improvement. And I really believe that once we unleash 
the power inherently therein from our national labs, we can 
solve those economic problems and not just stop there. There is 
promise across the country with physicists, scientists, and 
engineers at many of our national labs working with teachers 
and students and improving our educational system across 
America.
    And just in the way we would talk about an Entrepreneurial 
Leave program, I think we can talk about an educational leave 
program associated with many of those bright minds that we have 
within our national labs to help solve those problems. And I 
would suggest that it is part of our national security to be 
able to address many of these issues.
    Specifically, Dr. Holdren, a few months ago the President 
issued an executive memorandum urging the federal agency heads 
to step up their technology transfer activities. Could you 
please address the progress being made in this area and if any 
of this is reflected in the 2013 budget? And also the Energy 
Policy Act of 2005, a technology commercialization fund was 
created within the Department of Energy to promote promising 
energy technologies for commercial purposes, and I would like 
for you to share a little bit about that as well.
    Dr. Holdren. Okay. Big questions for a short time period. 
But let me say, first of all, I agree with everything you said 
about the importance of the national labs and the fact that 
there is more we could still do to facilitate making those 
intellectual resources more widely available. The President's 
Educate to Innovate Program, which he announced originally in 
November of 2009, has as one of its major features bringing 
practicing scientists, engineers, and mathematicians from 
national labs, research universities, and firms into 
classrooms, middle school, high school classrooms to work with 
science and math teachers to provide more hands-on activities 
and experiences that get kids excited about science and 
engineering and to serve as role models. I have already 
mentioned the innovation hubs that again are aimed at making 
sure the expertise in the national laboratories get applied in 
the private sector and in the marketplace.
    You mentioned the executive order on accelerating 
technology transfer activities and asked for a progress report. 
As far as I know, it is too soon to have any quantitative 
measures of how well that is working, but I will try to get 
back to you on it, see if we have anything on that already. But 
my guess is it is a little soon to judge the degree of success 
these programs are having. But I can certainly assure you that 
both in my office and in the West Wing of the White House there 
is a tremendous amount of interest in getting this right. The 
Jobs Council, which has met regularly with the President, is 
focused on this. OSTP is focused on it. I think the room for 
improvement is going to be exploited and we are going to 
improve.
    Mr. Lujan. Thank you for that, Dr. Holdren. And the only 
thing I would add, in addition to thanking you and the team 
that is with you today as well as those that are probably 
tuning in, is as we talk about the contracts with the national 
labs, as those are coming up, that to the extent possible that 
we tie job creation as well as the technology 
commercialization, maturation, and transfer aspects associated 
inherently with those contracts so that way we can encourage 
that behavior as much as we possibly can.
    And I appreciate your attention to this in support of the 
national labs as well, sir.
    And with that, Mr. Chairman, I yield back.
    Chairman Hall. And I thank you for yielding.
    Now, the very patient Mr. Sarbanes is recognized for a 
quick five minutes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate that.
    Thank you for your testimony today. There is a program 
under NIST called the Manufacturing Extension Partnership, 
which I know you are familiar with and it is a resource to 
manufacturers across the country to help sort of boost their 
opportunities and organize those opportunities, et cetera. And 
there is an initiative within the MEP program called the 
Supplier Scouting Program, which is--I don't think it occupies 
a major line item in the budget, but it is a recent initiative 
that attempts to match small- and medium-size American 
manufacturers with these various supply chain needs that arise 
as a result of major infrastructure projects across the 
country. So it is a terrific idea and innovation because what 
it is doing is it is really helping make that connection so 
that when you have a major infrastructure project, you can get 
bidders and vendors coming forward who are American 
manufacturers and they can get into that supply chain.
    And I really just wanted to commend NIST for this and the 
innovation that the MEP program has managed to put forward here 
with the Supplier Scouting Program. There has been a lot of 
progress with this with--the Department of Transportation, has 
taken a lot of initiative, the Department of Energy, the 
Defense Department, and I think it is a terrific model going 
forward for how you make these connections and just hope that, 
you know, the President will continue and you will continue to 
support that kind of initiative, particularly now as we are 
recognizing the real opportunities to boost American 
manufacturing going forward. This is something that we can take 
full advantage of and I just hope that that will continue to be 
a point of emphasis with you.
    Dr. Holdren. Well, it is going to be a continuing point of 
emphasis. It gives me an opportunity to say that NIST is an 
amazingly agile and effective organization. Its head, Dr. Pat 
Gallagher, is one of my closest colleagues and collaborators in 
this domain of innovation in figuring out how to lift our game 
in promoting manufacturing and particularly high-tech advanced 
manufacturing in this country. The Advanced Manufacturing 
Partnership, which has been headed by Andrew Liveris of Dow; 
and Susan Hockfield, the President of MIT has been part of that 
linking industry, academia, and the government in some of these 
initiatives. And so I thank you for that comment. This is a 
high priority for us and we are going to keep pursuing it.
    Mr. Sarbanes. Thank you. Let me ask you another question. 
There is something called the National Science and Technology 
Council Committee on STEM Education, which recently, as you 
know, submitted its first annual report and apparently 
identified about 252 federally funded STEM activities across 
the government that are currently underway and noted that in 
many instances they have different objectives, they are focused 
on different products, they have different target audiences, et 
cetera, and recommended that there be a more efficient approach 
to this looking for better coherence among these multiple 
programs. And I wanted to get your comment on that. I think you 
were involved in some of those findings and I am also curious 
as to whether you think the efficiency we like to see there in 
terms of the way these programs work together and these 
initiatives work together is something we can rely on the 
agencies to undertake themselves or whether they could use a 
push from the President and his office to make that happen.
    Dr. Holdren. Well, thank you. Yes, the National Science and 
Technology Council is a body that was created in order to make 
sure that all science- and technology-related activities across 
departmental and agency boundaries are appropriately 
coordinated. And I chair it on behalf of the President and all 
the agencies that have science and technology and STEM 
education missions are represented there.
    And so it has five standing committees under the Council, 
and one of those is the STEM Education Committee that is 
chaired by Dr. Carl Wieman, the physics Nobel Prize winner who 
is my Associate Director for Science in OSTP. And as you point 
out, they did do a survey which established that there are well 
over 200 programs in STEM education spread across the agencies, 
but the idea was not that these all need to be consolidated. 
The idea was to determine to what extent there is overlap and 
duplication in their activities and their missions and to try 
to determine which ones are more effective and which ones are 
less effective.
    But we recognize and the NSTC STEM Education Committee 
recognizes that a lot of the diversity in those programs is 
fully warranted. These agencies and their programs have 
different focuses, different missions, different 
constituencies, different sets of kids and different levels of 
education on which they are focused. And our intention in 
following up those recommendations--and I mentioned there is 
going to be a strategic plan forthcoming shortly--is not to 
pretend that one size fits all in STEM education and scrunch 
these things altogether, but rather to coordinate and 
orchestrate the appropriate diversity of these programs in a 
way so that to the extent that there is duplication and to the 
extent that there are important missions that are left out 
altogether, we fix that.
    Mr. Sarbanes. I appreciate it. I yield back, Mr. Chairman.
    Chairman Hall. Thank you, Mr. Sarbanes.
    And Dr. Holdren, I thank you and we all thank you for your 
very valuable testimony and for the time you have given us. And 
I thank the Members for their questions.
    I might ask that the Members of the Committee have 
additional questions to you, Dr. Holdren, that they will submit 
to you, ask that you respond to them in writing when you can, 
as soon as you can. The record will remain open for at least 
two weeks for additional comments from Members.
    And with that, Dr. Holdren, you are excused and the hearing 
is adjourned.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]
                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by The Honorable John P. Holdren,
Director, Office of Science and Technology Policy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

    Website link to EPA's cost-benefit analysis of recently released
      mercury rule as submitted by the Honorable John P. Holdren,
           Director, Office of Science and Technology Policy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           <all>



</pre></body></html>
